No. 19-______

In The
Supreme Court of the United States

JOSEPH A. CARAMADRE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to
the United States Court of Appeals for the First Circuit

SUPPLEMENTAL APPENDIX TO THE
PETITION FOR A WRIT OF CERTIORARI
JOHN W. MITCHELL, ESQ.
LAW OFFICE OF JOHN W. MITCHELL
Supreme Court Bar # 200159
Attorney for Petitioner
P.O. Box 163
Bedford, New York 10506
(914) 234-6260
lawofficejwm@gmail.com
DICK BAILEY SERVICE, Inc. · 1-800-531-2028

[REPRODUCED ON RECYCLED PAPER]

·

dickbailey.com

1a

UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF RHODE ISLAND
JOSEPH A. CARAMADRE
v.

Cr. No.
11-186-WES

UNITED STATES OF AMERICA
MEMORANDUM AND ORDER
WILLIAM E. SMITH, Chief Judge.
Defendant/Movant Joseph A. Caramadre has
filed a motion to vacate, set aside, or correct
sentence pursuant to 28 U.S.C. § 2255 (“Mot. To
Vacate,”
ECF
No.
267),
and
supporting
memorandum (“Caramdre Mem.,” ECF No. 267-1),
in the above-captioned matter. The Government has
objected to the Motion (“Gov’t Obj.,” ECF No. 271).
Caramadre thereafter filed a reply (“Caramadre
Reply,” ECF No. 273), to which the Government filed
a sur-reply (“Gov’t Sur-Reply,” ECF No. 274).
The Court has determined that no hearing is
necessary. For the reasons that follow, the Motion to
Vacate is DENIED.
I.

Background and Travel

The background of the case is taken from the
Court’s Memorandum of Decision (ECF No. 181)
explaining its denial of Caramadre’s motion to
withdraw guilty plea (“Mot. To Withdraw Please,”
ECF No. 122). The travel is taken from the Court’s
Docket.

2a

On
November
17,
2011,
after
a
lengthy investigation including pre-indictment
depositions and Grand Jury proceedings, the
Grand Jury returned a detailed indictment
against Defendants Caramadre and Raymour
Radhakrishnan. The Indictment charged both
Defendants with sixty-five counts including wire
fraud, mail fraud, conspiracy, identity fraud,
aggravated
identity
theft,
and
money
laundering. Caramadre was also charged with
one count of witness tampering. At its core, the
Indictment alleged that Caramadre devised
a fraudulent scheme, later joined by
Radhakrishnan, to secure the identities of
terminally
ill
people
through
material
misrepresentations and omissions. Caramadre
and Radhakrishnan allegedly made millions
of dollars by taking these fraudulently
obtained
identities,
making
additional
misrepresentations to insurance carriers, and
then purchasing variable annuities and
corporate bonds with death-benefit features.
Because of the vast scope of the Indictment and
the number of government witnesses, trial was
anticipated to last over three months. The Jury
empanelment process was lengthy as well,
involving an extensive questionnaire and
individual voir dire.
Trial began on Tuesday, November 13, 2012.
After four days of trial, on Monday, November
19, 2012, Caramadre and Radhkrishnan entered

3a

guilty pleas pursuant to a package plea
agreement (the “Plea Agreement”) in which they
both pleaded guilty to Counts Nine (wired fraud)
and Thirty-three (conspiracy to commit mail
fraud, wire fraud, and identity theft).
Sentencing was scheduled for March 2013 in
anticipation of considerable disagreement over
the loss amounts and restitution. All was
quiet until January 2013, when Caramadre’s
attorneys moved to withdraw from the
case and his new attorneys alerted the Court
that Caramadre would be filing a motion
to withdraw his plea. The Motion was
eventually filed on February 28, 2013.
United States v. Caramadre, 957 F. Supp. 2d 160,
165 (D.R.I. 2013) (internal citations omitted)
(“Caramadre IV”); see also United States v.
Caramadre, 807 F. 3d 359, 364-65 (1st Cir. 2015)
(denying Caramadre’s direct appeal) (“Caramadre
V”), cert. denied, Caramadre v. United States,
136 S. Ct. 2455 (2016) (“Caramadre VI”). 1 After an

Throughout this Memorandum and Opinion, the
Court will reference a number of decisions rendered in
this case. The Court will refer to them, chronologically, as
follows: United States v. Caramadre, 882 F. Supp. 2d 302
(D.R.I. 2012) (denying Radhakrishnan’s motion to sever)
(“Caramadre I”); United States v. Caramadre, No. CR 11186 S, 2012 WL 4364529 (D.R.I. Sept. 21, 2012) (denying
Caramdre’s motion to sever) (“Caramadre II”); United
States v. Caramadre, Cr. No. 11-186 S, 2012 WL 4762189
(D.R.I. Oct. 5, 2012) (denying Caramadre’s motion
to waive jury trial) (“Caramadre III”); United States v.
1

4a

evidentiary hearing spanning four days, the Court
denied Caramadre’s Motion to Withdraw Plea from
the bench on May 20, 2013. The Court issued a
Memorandum of Decision on August 1, 2013.
Caramadre was sentenced on December 16, 2013,
to 72 months’ incarceration as to Count Nine and a
concurrent term of 60 months’ incarceration as to
Count Thirty-Three, to be followed by three years
of supervised release on each Count, also to
run concurrently, and a special assessment of
$200. Restitution was to be determined at a later
date. The Government moved to dismiss the
remaining counts, and the Court granted the motion.
Judgment issued on December 26, 2013, followed on
February 25, 2014, by an Amended Judgment, which
included the restitution amounts which had been
determined.
Caramadre filed Notices of Appeal of both the
Judgment and the Amended Judgment. The Court of
Appeals for the First Circuit denied Caramadre’s
appeal on December 7, 2015. The court’s Mandate
issued on January 20, 2016. On May 23, 2016, the
Supreme Court denied further review.
Caramadre, 957 F. Supp. 2d 160 (D.R.I. 2013)
(denying Caramadre’s motion to withdraw guilty
plea) (“Caramadre IV”); United States v. Caramadre, 807
F. 3d 359 (1st Cir. 2015) (denying Caramadre’s direct
appeal) (“Caramadre V”); Caramadre v. United States,
136 S. Ct. 2455 (2016) (denying Caramadre’s petition for
writ of certiorari) (“Caramadre VI”).

5a

On May 15, 2017, Caramadre timely filed the instant
Motion to Vacate.
II. Law
A. Section 2255
Section 2255 provides in relevant part:
A prisoner in custody under sentence of a court
established by Act of Congress claiming the
right to be released upon the ground that the
sentence was imposed in violation of the
Constitution or laws of the United States, or
that the court was without jurisdiction to
impose such sentence, or that the sentence was
in excess of the maximum authorized by law, or
is otherwise subject to collateral attack, may
move the court which imposed the sentence to
vacate, set aside or correct the sentence.
28 U.S.C. § 2255 (a).
Generally, the grounds justifying relief under
28 U.S.C. § 2255 (a) are limited. A court may grant
relief pursuant to § 2255 in instances where the
court finds a lack of jurisdiction, a constitutional
error, or a fundamental error of law. United States v.
Addonizio, 442 U.S. 178, 185 (1979). “[A]n error of
law does not provide a basis for collateral attack
unless the claimed error constituted a fundamental
defect which inherently results in a complete
miscarriage of justice.” Id. (internal quotation marks
omitted). Moreover, § 2255 is not a substitute for
direct appeal. Knight v. United States, 37 F. 3d 769,
772 (Cir. 1994) (citing cases).

6a

B. Strickland
The Sixth Amendment guarantees defendants
the right to effective assistance of counsel. Lema v.
United States, 987 F. 2d 48, 51 (1st Cir. 1993) (citing
Strickland v. Washington, 466 U.S. 668. 687 (1984)).
However, “[t]he Constitution does not guarantee
a defendant a letter-perfect defense or a successful
defense; rather, the performance standard is that
of reasonably effective assistance under the
circumstances then obtaining.” United States v.
Natanel, 938 F. 2d 302, 309-310 (1st Cir. 1991).
A defendant who claims that he was deprived of
his Sixth Amendment right to effective assistance of
counsel must demonstrate:
(1) that his counsel’s performance fell below an
objective standard of reasonableness; and
(2) a reasonable probability that, but for
counsel’s unprofessional errors, the result of
the proceeding would have been different.
Strickland, 466 U.S. at 687-88, 694. In assessing the
adequacy of counsel’s performance, a defendant
“ ‘ must identify the acts or omissions of counsel that
are alleged not to have been the result of reasonable
professional judgment,’ and the court then
determines whether, in the particular contact, the
identified conduct of inaction was ‘outside the
wide range of professionally competent assistance.’ ”
United States v. Manon, 608 F. 3d 126, 131 (1st Cir.
2010) (quoting Strickland, 466 U.S. at 690). With
respect to the prejudice requirement under
Strickland, a “reasonable probability is one sufficient
to undermine confidence in the outcome. In making

7a

the prejudice assessment, [the court] focus[es] on the
fundamental fairness of the proceeding.” Id.
(internal citations and quotation marks omitted).
“Unless a defendant makes both showings, it cannot
be said that the conviction . . . resulted from a
breakdown in the adversary process that renders the
result unreliable.” Strickland, 466 U.S. at 687; see
also Reyes-Vejerano v. United States, 117 F. Supp.
2d 103, 106 (D.P.R. 2000) (“The petitioner has the
burden of proving both prongs of this test, and the
burden is a heavy one.”). “The benchmark for
judging any claim of ineffectiveness must be whether
counsel’s conduct so undermined the proper
functioning of the adversarial process that the trial
cannot be relied on as having produced a just result.”
Strickland, 466 U.S. at 686.
Strickland instructs that “[j]udicial scrutiny of
counsel’s performance must be highly deferential.”
Id. At 689; see also id. (“It is all too tempting for a
defendant to second-guess counsel’s assistance after
conviction or adverse sentence, and it is all too easy
for a court, examining counsel’s defense after it has
proved unsuccessful, to conclude that a particular
act or omission of counsel was unreasonable.”). The
court “must indulge a strong presumption that
counsel’s conduct falls within the wide range of
reasonable professional assistance; that is,
the defendant must overcome the presumption
that, under the circumstances, the challenged
action ‘might be considered sound trial strategy.’ ”
Id. (quoting Michel v. Louisiana, 350 U.S. 91, 101
(1955)). Moreover, “[a]n error by counsel, even if
professionally unreasonable, does not warrant
setting aside the judgment of a criminal proceeding

8a

if the error had no effect on the judgment.” Id. at
691. Finally, “[a] fair assessment of attorney
performance requires that every effort be made to
eliminate the distorting effects of hindsight,
to reconstruct the circumstances of counsel’s
challenged conduct, and to evaluate the conduct from
counsel’s perspective at the time.” Id. at 689.
The same principles apply in the context of guilty
pleas. See Hill v. Lockhart, 474 U.S. 52, 57 (1985).
The Hill Court held that “the two-part Strickland v.
Washington test applies to challenges to guilty pleas
based on ineffective assistance of counsel.” Id. at 58;
see also Padilla v. Kentucky, 599 U.S. 356, 371 n. 12
(2010) (“In Hill, the Court recognized-for the first
tome-that Strickland applies to advice respecting a
guilty plea.”). The first prong of the Strickland test is
nothing more than a restatement of the standard of
attorney competence described above. Hill, 474 U.S.
at 58.
The second, or “prejudice,” requirement,
on the other hand, focuses on whether counsel’s
constitutionally ineffective performance affected
the outcome of the plea process. In other words,
in order to satisfy the “prejudice” requirement,
the defendant must show that there is a
reasonable probability that, but for counsel’s
errors, he would not have pleaded guilty and
would have insisted on going to trial.
Id. at 59; see also Lee v. United States, 137 S. Ct.
1958, 1965 (2017) (quoting Hill); Padilla, 559 U.S. at
372 (noting that “to obtain relief on this type of
claim, a petitioner must convince the court that a
decision to reject the plea bargain would have been

9a

rational under the circumstances”); Lafler v. Cooper,
566 U.S. 156, 163 (2012) (“In the context of pleas a
defendant must show the outcome of the plea process
would have been different with competent advice.”).
However, “[c]ourts should not upset a plea solely
because of post hoc assertions from a defendant
about how he would have pleaded but for his
attorney’s deficiencies. Judges should instead look to
contemporary evidence to substantiate a defendant’s
expressed preferences.” Lee, 137 S. Ct. at 1967.
III. Discussion
Caramadre presents one ground for relief:
that, as a result of the ineffective assistance of his
trial counsel, “his guilty plea was not knowing
and voluntary and as a result, his 5th and
6th Amendment rights were abridged.” (Mot. To
Vacate 5.)
Specifically, Caramadre asserts that:
[H]e was deprived of 5th Amendment rights
to due process of law and his constitutional right
to present a complete defense, including
the right to present witnesses in his
own defense, as well as his 6th Amendment
right to the effective assistance of counsel, as
a result of his trial counsels’ failure to
undertake the steps necessary to have
determined that Petitioner’s co-defendant,
Raymour Radhakrishnan, was willing to provide
compelling exculpatory evidence on Petitioner’s
behalf if Mr. Radhakrishnan was tried at a
separate trial and further, that it constituted
ineffective assistance of counsel for the failure of

10a

his trial counsel to move before the District
Court for a severance pursuant to Rule 14 of the
Fed. R. Crim. Pro., based upon Petitioner’s need
for the testimony of co-defendant, Raymour
Radhakrishnan, and that as the result of
Petitioner’s counsels’ ineffective assistance,
Petitioner was induced to enter a guilty plea,
which he would not have entered but rather
would have insisted on going to trial.
As a result, Petitioner’s guilty plea was not a
knowing and voluntary waiver of his right to a
trial . . .
(Id.) The Government counters that Caramadre’s
claim is procedurally barred (Gov’t Obj. 3), and that,
in any event, Caramadre has failed to meet his
burden of demonstrating that counsel’s performance
was constitutionally deficient and that he suffered
prejudice as a result (id. at 1).
A. Procedural Default
The Government contends that Caramadre’s
current claim is procedurally barred because:
Caramadre already thoroughly argued that his
former attorneys were ineffective in the context
of his motion to withdraw his guilty plea. In that
motion, petitioner made every argument he
could imagine in support of his assertion that
his attorneys committed serious errors that
caused him to enter a guilty plea . . .
(Gov’t Obj. 3-4; see also id. at 4 (“Petitioner is now
simply recycling this same claim by finding a new
spin on the same old argument – that his former
counsel’s ineffectiveness led him to plead guilty.”).)

11a

Thus, the Government concludes, Caramadre has
already been “afforded the opportunity for full and
fair litigation of his counsel’s alleged ineffectiveness
in the context of his decision to plead guilty,
as required by the Supreme Court in Withrow,”2
(id. at 4), and is “barred from rehashing in the
same argument once again” (id. at 5).
Caramadre responds that “the government’s
argument that Petitioner has somehow ‘waived’ his
right to bring the instant Petition, is without merit.”
(Caramadre Reply 6.)3
The issue that forms the basis for the instant
petition – failure to investigate whether
Mr. Caramadre’s co-defendant would provide
meaningful exculpatory testimony at a separate
trial, and/or failing to move the Court for a
severance on that basis – is a free standing issue
that has never been previously litigated or
adjudicated either by this Court or in
Petitioner’s direct appeal to the First Circuit
Court of Appeals. It is now being raised, for the
first time, by collateral attack in the present
habeas corpus proceeding (28 U.S.C. § 2255).
(Id. at 5.) He further asserts that:

Withrow v. Williams, 507 U.S. 680, 721 (1993) (Scalia, J.,
concurring in part and dissenting in part) (“[A] prior
opportunity for full and fair litigation is normally dispositive of
a federal prisoner’s habeas claim.”).
2

3

Page citations refer to the ECF pagination.

12a

[T]he government’s contention that the
Petitioner was somehow required – at the
hearing on his motion to withdraw his plea – to
raise every conceivable issue regarding by this
Court’s express instruction to Petitioner that:
“Should Caramadre wish to levy a more
thorough attack on his counsel, he is free to do
[so] via a proper collateral attack.”
(Id. (quoting Caramadre IV, 957 F. Supp. 2d at 174
n.9)).4
As previously noted, on February 28, 2013,
Caramadre, now represented by new counsel, filed a
motion to withdraw his plea. The motion was fully
briefed (see ECF Nos. 122-1, 130, 143, 144), and the
Court conducted a four-day evidentiary hearing (see
Docket). At the conclusion of the hearing, the Court
denied the motion from the bench. See Caramadre
IV, 957 F. Supp. 2d at 165. The Court subsequently
issued a Memorandum of Decision elaborating on its
ruling. See id. at 164-65 (“For the reasons stated at

Caramadre also states that “[t]he cases relied upon by the
government as authority for its ‘waiver’ argument . . . are so
factually dissimilar as to provide no point of comparison to the
circumstances extant in this case.” (Caramadre Reply 6 (citing
Withrow v. Williams, 507 U.S. 680 (1993); United States v.
Perez, 129 F. 3d 255, 260 (2nd Cir. 1997)); Argencourt v. United
States, 78 F. 3d 14, 16 n.1 (1st Cir. 1996))). As Caramadre fails
to develop this argument further, the Court declines to address
it. See United States v. Zannino, 895 F. 2d 1, 17 (1st Cir. 1990)
(noting “settled appellate rule that issues adverted to in a
perfunctory manner, unaccompanied by some effort at
developed argumentation are deemed waived”).
4

13a

the conclusion of the Hearing, and set forth in more
detail herein, the Court found the Motion to be
entirely meritless, bordering on frivolous, and denied
it from the Bench.”).
Caramadre relies on the Court’s statement in its
Memorandum of Decision that “[s]hould Caramadre
wish to levy a more thorough attack on his counsel,
he is free to do [so] via a proper collateral attack.”
(Caramadre Reply 5 (citing Caramadre IV, 957
F. Supp. 2d at 174 n.9); see also Caramadre Mem. 8
n.1). The Court’s footnote reads in full:
Throughout these proceedings, Caramadre has
continually sought to morph this Motion into a
more general attack on the effectiveness of his
counsel. This strategy was improper, resulting
in significant delays in the proceedings and
causing multiple distractions from the true
nature of the Motion. Counsel’s alleged
ineffectiveness is only relevant to the extent it
affected Caramadre’s decision to plead guilty.
Should Caramadre wish to levy a more thorough
attack on his counsel, he is free to do so via
a proper collateral attack, though the Court
notes that, based on the evidence presented
at the Hearing, which ploughed the depths of
the effectiveness of the representations provided
by Mr. Lepizzera and Mr. Traini, it appears that
such an attack would be futile.
Caramadre IV, 957 F. Supp. 2d at 174 n. 9
(emphasis added). In the instant Motion to Vacate,
Caramadre’s focus is also on counsel’s alleged
ineffectiveness as it relates to his decision to plead
guilty. (Mot. to Vacate 5.) Contrary to Caramadre’s

14a

argument, then, the question is not whether counsel
was required “to raise every conceivable issue
regarding the conduct of his counsel” (Caramadre
alleges here “affected [his] decision to plead guilty,”
Caramadre IV, 957 F. Supp. 2d at 174 n. 9.
Therefore, the Court turns to Caramadre’s motion to
withdraw his guilty plea.
Part of Caramadre’s allegation of ineffective
assistance in that motion involved counsel’s failure
to hire an investigator to interview witnesses. Id. at
176-77. The hearing transcript reflects that
Caramadre initially instructed trial counsel not to
hire an investigator to interview witnesses,5 but
subsequently directed counsel to hire an investigator
to explore several specific potential witnesses.
Id. at 176 n. 13; (see also Transcript of May 13, 2013,
hearing on Mot. to Withdraw Plea (“Day 2 Tr.”)
63-65, ECF No. 178; Transcript of May 14, 2013,
hearing on Mot. to Withdraw Plea (“Day 3 Tr.”)
42, 45, ECF No. 179.)6 There is no apparent
reason why Caramadre could not have included
Radhakrishnan on that list-except, perhaps, that he

5
In fact, Caramadre initially told counsel that an
investigator was unnecessary because “he knew all of the
facts . . .” Caramadre IV, 957 F. Supp. 2d at 176 n. 13.

The Court will hereafter refer to the transcripts of the
evidentiary hearing on Caramadre’s motion to withdraw his
plea as follows: Transcript of April 24, 2013, hearing (ECF No.
147) (“Day 1 Tr.”); Transcript of May 13, 2013, hearing (ECF
No. 178) (“Day 2 Tr.”); Transcript of May 14, 2013, hearing
(ECF No. 179) (“Day 3 Tr.”); and Transcript of May 20, 2013,
hearing (ECF No. 180) (“Day 4 Tr.”)
6

15a

had not thought of it yet. Thus, the Government’s
point regarding waiver is well-taken.
The Court need not decide the issue, however,
because, even assuming that Caramadre has not
waived his claim, the allegation that Caramadre
received ineffective assistance based on trial
counsel’s alleged failure to interview Radhakrishnan
to ascertain whether he had exculpatory evidence, or
file a motion to sever on that basis, fails on the
merits.
B. Merits
The record in this case reflects that on
May 30, 2012, Radhakrishnan, through counsel, filed
a motion to sever his trial from Caramadre’s
(ECF No. 58). Radhakrishnan argued in part that
“because the co-Defendants’ defenses will be so
antagonistic to one another, the jury will hear
otherwise inadmissible bad-character evidence
against each Defendant and be required to choose
one Defendant over the other . . .” Caramadre I, 882
F. Supp. 2d at 304. After hearing, the Court denied
the motion, noting the preference for joint trials in
the federal system because “[t]hey promote efficiency
and serve the interests of justice . . .” Id. (alterations
in original).
Radhakrishnan subsequently filed a notice of
intent to proceed pro se (ECF No. 73), which the
Court granted and appointed stand-by counsel
during an August 7, 2012, hearing. (See Docket.)
This development prompted Caramadre to file a
motion to sever his trial form Radhakrishnan’s
(ECF No. 80), arguing that Radhakrishnan’s

16a

self-representation would result in “irremediable
prejudice” to Caramadre. Caramadre II, 2012 WL
4364529, at *1. The Court denied Caramadre’s
motion, again pointing out that “joint trials are
preferred in the federal system,” especially in
conspiracy cases. Id.
Caramadre then filed a motion for leave to waive
a jury trial and proceed with a bench trial (ECF No.
82), as an alternative to severance. See Caramadre
III, 2012 WL 4762189, at *1. The Government
opposed this motion (ECF No. 85), and the Court
denied it, citing its belief that a fair trial, with an
impartial jury, could be obtained. See id. at *2. The
Court further noted its intention to “provide
comprehensive instructions to ensure the jury
remains impartial and no party is prejudiced,” i.d.,
and its “ability to sever the trial at a later date
should it become necessary,” id.
Against this backdrop, the Court turns to the
merits of Caramadre’s claim.
Caramadre’s claim can be broken into three
components: counsels’ failure to investigate what
testimony Radhakrishnan would have been willing
to provide had the Defendants been tried separately;
counsels’ failure to move sever the trials based on
Caramadre’s need for Radhakrishnan’s testimony;
and the resulting unknowing and involuntary entry
of Caramadre’s plea. (Mot. to Vacate 5.) The Court
addresses each of these issues in turn.
“[C]ounsel has a duty to make reasonable
investigations or to make a reasonable decision that
makes particular investigations unnecessary.”

17a

Strickland, 466 U.S. at 691; see also Janosky v. St.
Amand, 594 F.3d 39, 49 (1st Cir. 2010) (quoting
Strickland). However, “this duty does not invariably
require a lawyer, at all times and under all
circumstances, to probe every evidentiary lead.”
Janosky, 594 F.3d at 49; see also United States v.
Pellerito, 878 F.2d 1535, 1540 (1st Cir. 1989)
(“ ‘Effectiveness’ does not require that counsel jump
through every conceivable hoop, or engage in futile
exercises.”). “In any effectiveness case, a particular
decision not to investigate must be directly assessed
for reasonableness in all the circumstances, applying
a heavy measure of deference to counsel’s
judgments.” Strickland, 466 U.S. at 691. “The
relevant inquiry is not what defense counsel might
ideally have mounted but, rather, whether the choice
that he made was within the universe of objectively
reasonable choices.” Janosky, 594 F. 3d at 49.
Moreover,
The reasonableness of counsel’s actions may be
determined or substantially influenced by the
defendant’s own statements or actions.
Counsel’s actions are usually based, quite
properly, on informed strategic choices made by
the defendant and on information supplied by
the defendant. In particular, what investigation
decisions are reasonable depends critically on
such information.
Strickland, 466 U.S. at 691.
Radhakrishnan has provided an affidavit
(“Radhakrishnan Aff.,” ECF No. 267-3) in which he
asserts that he would have been willing to testify for
Caramadre at a separate trial. (Radhakrishnan

18a

Aff. ¶ 8) At the time, however, counsel had no reason
to believe that Radhakrishnan would provide
exculpatory
testimony
for
Caramadre.
See
Strickland, 466 U.S. at 690 (“[A] court deciding an
actual ineffectiveness claim must judge the
reasonableness of counsel’s challenged conduct on
the facts of the particular case, viewed as of the
time of counsel’s conduct.”). On the contrary,
Radhakrishnan had already stated in his motion to
sever that his defense would be severely antagonistic
to Caramadre’s. (See Memorandum of Law in
Support of Defendant Raymour Radhakrishnan’s
Motion to Sever (“Radhakrishnan Severance Mem.”
8, ECF No. 58); Gov’t Ex. B 7, ECF No. 271-2); see
also Caramadre I, 882 F. Supp. 2d at 304. As noted
by the Government (Gov’t Obj. 7), Radhakrishnan
argued that:
Mr. Caramadrre was the older experienced
businessman and known philanthropist while
Mr. Radhakrishnan was his young aide in his
first job out of college. Mr. Caramadre had the
money, made the decisions, and had devised the
investment strategy at issue in this case many
years earlier. Mr Radhakrishnan was paid a
salary, was told what to do, and was asked to
learn on the job. Part of Mr. Radhakrishnan’s
defense will be based on the theory that
Mr. Caramadre was always in charge, he
directed Mr. Radhakrishnan to perform certain
acts, and assured him that all of the business
they were conducting was legal.
(Radhakrishnan Severance Mem. 7.) The fact that
Radhakrishnan now states that, had he been asked,

19a

he would have agreed to testify for Caramadre in a
separate trial (Radhakrishnan Aff. ¶ 8), has no
bearing on the decisions of counsel, based on the
facts before them at the time, leading up to the trial.
See Strickland, 466 U.S. at 689 (warning that court
should “eliminate the distorting effects of hindsight”
in assessing counsel’s conduct and “evaluate the
conduct form counsel’s perspective at the time”); see
also Lee, 137 S. Ct. at 1967; Premo v. Moore, 562
U.S. 115, 124 (2011) (“Acknowledging guilt and
accepting responsibility by an early plea respond to
certain basic premises in the law and its function.
Those principles are eroded if a guilty plea is too
easily set aside based on facts and circumstances not
apparent to competent attorney when actions and
advice leading to the plea took place.”).
Further, there is no evidence in the record that
Caramadre asked trial counsel to contact
Radhakrishnan’s counsel or, after Radhakrishnan
determined to represent himself, contact him
directly, with respect to testifying for Caramadre.
Nothing in Caramadre’s affidavit (“Caramadre Aff.,”
ECF No. 267-2), indicates that Caramadre
made such a request to counsel. He did, as noted
above, eventually discuss hiring an investigator
to interview other witnesses, but the record does not
reflect that Radhakrishnan was ever mentioned. See
Caramadre IV, 957 F. Supp. 2d at 176 n. 13; (see
also Day 2 Tr. 55, 63-68, 74-75; Day 3 Tr. 26-57;
Day 4 Tr. 37-38, 79-80).
“The decision to interview potential witnesses,
like the decision to present their testimony, must be
evaluated in light of whatever trial strategy

20a

reasonably competent counsel devised in the context
of the particular case.” Lema, 987 F.2d at 55. Trial
counsel testified at the hearing on Caramadre’s
motion to withdraw his guilty plea that their
strategy was to show that:
(1) there was no conspiracy between Caramadre
and Radhakrishnan; (2) to the extent
Radhakrishnan did make misrepresentations to
the terminally ill, he did so without
Caramadre’s knowledge or approval; (3) some of
the alleged misrepresentations to the insurance
companies were not misrepresentations at all
while others were not material; and (4) the
insurance companies either did not lose money
or lost money due to their own willful blindness.
Caramadre IV, 957 F. Supp. 2d at 175; (see also
Day 3 Tr. 20-22; Day 4 Tr. 20-21). While
Radhakrishnan’s affidavit, executed well over four
years after the fact, appears to support the first two
defenses (Radhkrishnan Aff. ¶ 12-23), counsel had no
reason to suspect that that was the case, either prior
to or during the trial. In fact, Mr. Lepizzera, one of
the Caramadre’s two trial attorneys, testified that
Caramadre had made certain “admissions” to him
which led him to believe that there was a valid basis
on which to enter the plea. (Day 2 Tr. 117-18,
126-27, 143; Day 3 Tr. 95-98, 113, 125, 158-59, 185);
see also Caramadre IV, 957 F. Supp. 2d at 183
(citing Day 2 Tr. 117-18, 121, 126-27; Day 3 Tr. 194
(“Mr. Lepizzera and Mr. Traini both testified that
they knew there was a factual basis to support the
plea . . . .”); id. at 185 (Mr. Lepizzera and Mr. Traini
testified that they knew based on their investigation

21a

and based on admissions from Caramadre that the
Statement of Facts was true.”)).
Finally, Radhakrishnan pled guilty at the
same time Caramadre did. (Transcript of
November 19, 2012, Change of Plea Hearing (“Plea
Hr’g. Tr.”) 25-26). He admitted that he was guilty of
the same two counts, Counts Three (wire fraud) and
Nine (conspiracy) (id. at 17-18, 26; Plea Agreement,
1.a.) and agreed to the detailed statement of facts
which was part of both Defendants’ Plea
Agreements. (Plea Hr’g. Tr. 25); see also Gov’t Obj.,
Ex. A., ECF No. 271-1). Thus, Radhakrishnan
either committed perjury when he signed the
Plea Agreement and testified at the change of
plea hearing, or he is committing perjury now.
“[A] defendant is normally bound by the
representations he makes in opne court at the time
of his plea because they are ‘more likely to be
reliable than later versions prompted by second
thoughts.’ ” Caramadre IV, 957 F. Supp. 2d at 167
(quoting United States v. Padilla-Galarza, 351 F. 3d
594, 598 (1st Cir. 2003)); see also United States v.
Gates, 709 F. 3d 58, 69-70 (1st Cir. 2013) (same).
In Caramadre IV, the Court found that counsels’
decision not to hire an investigator to interview the
witnesses suggested by Caramadre was not
ineffective assistance of counsel. 957 F. Supp. 2d at
177. The Court reaches the same conclusion with
respect to counsels’ actions (or inaction) with respect
to Radhakrishnan.
Next, Caramadre asserts that trial counsel were
ineffective due to their failure to move for a
severance pursuant to Fed. R. Crim. P. 14 based on

22a

his need for Radhakrishnan’s testimony. (Mot. to
Vacate 5.) Rule 14 provides in relevant part that:
If the joinder of offenses or defendants in an
indictment, an information, or a consolidation
for trial appears to prejudice a defendant or the
government, the court may order separate trials
of counts, sever the defendants’ trials, or provide
any other relief that justice requires.
Fed. R. Crim. P. 14(a).
As previously discussed, by the time Caramadre’s
trial began, the Court had already denied two
motions for severance. Caramadre II, 2012 WL
4364529, at *1; Caramadre I, 882 F. Supp. 2d at 304.
The Court had also denied Caramadre’s motion to
waive a jury trial. Caramadre III, 2012 WL 4762189,
at *1. The Court subsequently denied Caramadre’s
motion to withdraw his guilty plea. Caramadre IV,
957 F. Supp. 2d at 165, 186. Tellingly, the Court
stated in its Memorandum of Decision that
it believed that the purpose of that motion was,
at least in part, “a way to get what he wanted
from the start, which is a trial severed
from Radhakrishnan . . . .” Id. at 184, see also id.
(“Caramadre attempted on at least two occasions to
sever his trial from Radhakrishnan’s, once through a
traditional motion to sever and once through a more
creative motion for a bench trial.”) (internal citations
omitted). Given the fact that the Court had rejected
Radhakrishnan’s, attempt to sever his trial from
Caramadre’s and Caramadre’s two attempts to sever
his trial from Radhakrishnan’s, it defies logic to
think that the Court would have granted yet another
motion to sever.

23a

Caramadre, however, suggests that the motion to
sever he faults counsel for failing to file would not
necessarily have come after the previous two
motions to sever (as well as his motion to waive
a jury trial) but, perhaps, before the prior
motions. (Caramadre Reply 9 (“[I]t is Petitioner’s
contention
that
his
counsel
should
have
made inquiry of Mr. Radhakrishnan as soon
as possible.”)). Caramadre takes issue with “the
government’s incongruous assumption that the
severance motion based upon the need for
Mr. Radhakrishnan[‘s] exculpatory testimony would
have been brought after the Court had already
denied two previous severance motions (based on
completely different grounds) . . . .” (Id. at 9-10.) The
problem with Caramadre’s argument is that while
the motions may have been brought on different
grounds, the Court’s rationale for denying them was
the same.
With respect to Radhakrishnan’s motion to sever,
the Court stated:
However, joint trials are preferred in the federal
system because [t]hey promote efficiency and
serve the interests of justice by avoiding the . . .
inequity of inconsistent verdicts. Indeed, the
presumption and common practice favor trying
together defendants who are charged with
crimes arising out of a common core of facts.
Caramadre I, 882 F. Supp. 2d at 304 (alterations in
original) (internal citations and quotation marks
omitted). Further,

24a

In this matter, concerns of efficiency and the
due administration of justice are especially
apparent, as the trial is expected to span several
months, the government will call between
seventy-five and one hundred witnesses to
testify, and the government proffers that most of
the evidence would need to be introduced at
both trials, if Defendants were in fact tried
separately. Hence, there can be no doubt that a
joint trial would significantly conserve judicial
and prosecutorial resources.
Id. at 305. Regarding Caramadre’s motion to sever,
the Court reiterated:
As this Court previously explained when
Radhakrishnan made a similar motion to sever,
joint trials are preferred in the federal system
because [t]hey promote efficiency and serve the
interests of justice by avoiding the . . . inequity
of inconsistent verdicts. This is especially true in
a conspiracy case.
Caramadre II, 2012 WL 4364529, at *1 (alterations
in original) (internal citations omitted). The same
concerns would have been present even if counsel
had filed an earlier motion to sever.
Moreover, as is clear from the above discussion,
counsel had no reason to believe that Radhakrishnan
possessed
exculpatory
evidence,
based
on
Radhakrishnan’s own statements and actions. It was
not unreasonable for counsel to conclude that filing a
motion to server based on Caramadre’s supposed
need for Radhakrishnan’s testimony would be futile.
See Lema, 987 F. 2d at 55 (“Counsel need not chase

25a

wild factual geese when it appears, in light of
informed professional judgment, that a defense is
implausible or insubstantial as a matter of law, or,
as here, as a matter of fact and of the realities of
proof, procedure, and trial tactics.”)’ see also Knight
v. Spencer, 447 F. 3d 6, 16 (1st Cir. 2006) (quoting
Vieux v. Pepe, 184 F. 2d 59, 64 (1st Cir. 1999))
(“[F]ailing to pursue a futile tactic does not amount
to constitutional ineffectiveness.”) (alteration in
original)); Dure v. United States, 127 F. Supp. 276,
280 (D.R.I. 2001) (citing Vieux, 184 F. 3d at 64
(“Counsel cannot be deemed ineffective for failing to
pursue futile arguments.”).
The Court’s finding that Caramadre’s counsel
were not ineffective for failing to hire an investigator
to look into the possibility that Radhakrishnan
would provide exculpatory testimony at a separate
trial and failing to move to sever on that basis
effectively renders moot the final portion of
Caramadre’s final claim, that, as a result of counsels’
ineffectiveness, his plea was not knowingly and
intelligently entered. Should more be required,
however, one need only look to the plea colloquy and
Caramadre’s contemporaneous statements. 7
During the plea colloquy, the Court first
confirmed that Caramadre “fully underst[ood] all the
proceedings that are going on here . . . .” (Plea Hr’g.
The Plea Agreement itself directly contradicts the instant
claim that Caramadre’s plea was not knowingly and voluntarily
entered. (Plea Argmt. ¶ 1.b. (“Defendant further agrees that
Defendant’s decision to enter into a package plea agreement is
completely knowing and voluntary.”)).
7

26a

Tr. 5). The Court then ascertained that Caramadre
had a copy of the charges against him, had discussed
those charges with counsel, had signed a plea
agreement, and was “fully satisfied” with the
representation he had received. (Id. at 6-7.)
Caramadre acknowledged that no one had promised
him anything (other than what was contained in the
Plea Agreement) or threatened him in order to get
him to plead guilty. (Id. at 7-8.) After ensuring that
Caramadre understood the civil rights he was giving
up pleading guilty (id. 8-16), the Court asked: “Now,
by entering these please of guilty today, you’re
giving up all of these rights that I’ve just described
to you and you understand that there will not be or
we will not complete the trial in this case. Do you
understand?” (Id. at 16.) Caramadre responded “Yes,
your Honor.” (Id.) The Court then asked the
Government to put on the record the elements it
would have to prove and to review the agreed-to
statement of facts. (Id. at 17.)
At the conclusion of the Government’s recitation
of the elements and facts, the following exchange
occurred:
THE COURT: Now, you heard Mr. Vilker
describe the statement of facts, which you’ve
signed, the only difference being that he didn’t
list the long list of insurance companies and
other companies.
So I need to ask you on the record, do each of
you agree that these facts are true and these are
the facts of the case? Mr. Caramadre?

27a

MR. CARAMADRE: Yes, your honor.
....
THE COURT: I’m now going to ask each of
you how you wish to plead to these charges,
guilty or not guilty? Beginning with you,
Mr. Caramadre.
MR. CARAMADRE: Guilty.
....
THE COURT: It is the finding of this court in
the case of the United States versus Joseph
Caramadre and Raymour Radhakrishnan that
the Defendants are fully competent and capable
of entering in an informed plea; that the
Defendants are aware of the nature of the
charges against them and the consequences of
their pleas; and their pleas of guilty are knowing
and voluntary pleas supported by an
independent basis in fact containing each of the
essential elements of the offenses. These pleas
are, therefore, accepted, and the Defendants are
hereby adjudged guilty of those offenses.
(Id. at 25-26) At no point during the foregoing plea
colloquy did Caramadre evince any hesitation,
indecision, or desire to confer with counsel. See
Caramadre V, 807 F. 3d at 372 (“Caramadre
unhesitatingly agreed under oath with the
prosecutor’s version of the relevant events and
unambiguously admitted his guilt.”); see also United
States v. Fernandex-Santos, 856 F. 3d 10, 20
(1st Cir. 2017) (citing United States v. Chambers,
710 F. 3d 23, 29 (1st Cir. 2013)) (“The Rule 11
colloquy provides strong evidence that [the

28a

defendant] pled guilty knowingly, intelligently, and
voluntarily.”).
Further,
Caramadre’s
contemporaneously
expressed reasons for pleading guilty do not reflect a
lack of understanding of what he was doing by
pleading guilty, feelings of having been coerced or
induced, or dissatisfaction with counsel). Rather, as
the Court previously stated:
Lastly, and perhaps most telling, are the
contemporaneous or near-contemporaneous
statements made by Caramadre himself in
the days leading up to the plea and the days
and weeks following the plea. On Thursday
morning, November 15, Caramadre instructed
Mr. Lepizzera and Mr. Traini to open
negotiations because “my wife’s health is very
serious, my children cannot go without a father
who would be potentially incarcerated for many,
many years and without a mother who is
healthy or possibly even alive.” That weekend,
when speaking with Reverend Lacombe,
Caramadre stated that “his primary motivation,
corroborated by his attorneys at the time, was to
protect his fragile wife and family form further
psychological demise.” According to his
wife, Caramadre “permitted his attorneys
to negotiate a plea bargain with the
Government . . . . because he was overcome by
his fears and distress regarding my welfare and
that of our children.” Even on the day of the
plea, Caramadre told his aunt, Susan
Caramadre, that “he pled guilty because his

29a

family needed him, that he had moral
obligations and this is what was necessary.
Caramadre IV, 957 F. Supp. 2d at 173 (alteration in
original) (international citations omitted). Even as
he began to contemplate withdrawing is plea,
Caramadre told Mr. Lepizzera several weeks later
that he “had to protect my wife and children but I’m
not doing it anymore. My wife is much better now.”
Id.
It is clear from the foregoing plea colloquy and
Caramadre’s statements that he chose to plead
guilty. He knew exactly what he was doing, and why.
He was not coerced, and his plea was not the result
of any perceived ineffectiveness of his trial counsel.
Caramadre’s claim that his trial counsel were
ineffective for failing to hire an investigator
to interview Radhakrishnan or move to sever his
trial from Radhakrishan’s (based on the notion
that
Radhakrishnan
might
have
provided
exculpatory evidence) is unpersuasive. Nor did
counsels’ performance render his plea unknowing or
involuntary. See Hill, 474 U.S. at 56 (“Where, as
here, a defendant is represented by counsel during
the plea process and enters his plea upon the advice
of counsel, the volunatriness of the plea depends on
whether counsel’s advice was within the range of
competence demanded of attorneys in criminal
cases.” (internal quotation marks omitted).8
Both of his trial attorneys testified that they believed
pleading guilty was in Caramadre’s best interest. (Day 3 Tr.
133, 192; cf. Day 3 Tr. 114 (nothing that it would not have been
in Caramadre’s best interest to continue with the trial)).
8

30a

Therefore, the Court cannot conclude that
Caramadre’s guilty plea was anything but knowing,
intelligent, and voluntary.
Caramadre has not demonstrated that counsels’
conduct was “outside the wide range of
professionally competent assistance,” Manon, 608
F. 3d at 131; see also Strickland, 466 U.S. at 690, or
“fell below an objective standard of reasonableness,”
Strickland, 466 U.S. at 688. Therefore, he has not
satisfied the first prong of the Strickland test.
Having determined that counsels’ performance
was not deficient, the Court need not address
whether Caramadre has demonstrated prejudice
under Strickland’s second prong. See Knight v.
Spencer, 447 F. 3d at 15 (“knight has not made a
showing regarding the first prong with respect to
any of his four ineffective assistance claims, so we do
not reach the second prong of the analysis.”); see also
Strickland, 466 U.S. at 697. In the interest of
completeness, however, the Court will briefly discuss
the prejudice component of the Strickland analysis.
As summarized above, in order to show prejudice
in the plea context, a defendant must “demonstrate
‘a reasonable probability that, but for counsel’s
errors, he would not have pleaded guilty and would
have insisted on going to trial.’ ” Premo, 562 U.S. at
129 (quoting Hill, 474 U.S. at 59); see also Lee, 137
S. Ct. at 1965 (same). He need not show that “had he
gone to trial, the result of that trial would have been
different than the result of the plea bargain.” Lee,
137 S. Ct. at 1965 (internal quotation marks
omitted). That is not to say that a defendant never
looks at the possibility of conviction; rather,

31a

“defendants obviously weigh their prospects at trial
in deciding whether to accept a plea.” Id. at 1966; see
also id. (“The decision whether to plead guilty also
involves assessing the respective consequences of
conviction after trial and plea.”). The Court
reiterates the Supreme Court’s admonishment that
courts ‘should not upset a plea solely because of post
hoc assertions from a defendant about how he would
have pleaded but for his attorney’s deficiencies,”
id. at 1967, but, rather “should instead look to
contemporaneous evidence to substantiate a
defendant’s expressed preferences,” id.
Here, Caramadre stated at the time he entered
his plea that his “primary motivation . . . was to
protect his fragile wife and family from further
psychological demise.” Caramadre IV, 957 F. Supp.
2d at 173. In addition, he had heard at least the
beginning of the Government’s case against him,
since the trial had begun. As the Court stated in
Caramadre IV, “under the circumstances, and in
light of the damning evidence of his guilt presented
by the government, the most rational thing
Caramadre could have done was exactly what he
did-negotiate the best plea deal he could and end the
trial.” Id. at 174; see also Padilla, 559 U.S. at 372
(noting that defendant must demonstrate that “a
decision to reject the plea bargain would have been
rational under the circumstances”).
Further, in weighing the consequences of a guilty
verdict of trial, Caramadre was facing a bleak
future. See Lee, 137 S. Ct. at 1966. During the
change of plea hearing, the Court summarized the
maximum statutory penalties Caramadre faced:

32a

So the maximum statutory penalties for
the two counts that you’re pleading guilty to
are as follows: With respect to Count 9, 20 years
of imprisonment, a fine of $250.00, a term
of supervised release of three years and a
mandatory special assessment of $100.
With respect to Count 33, five years of
imprisonment, a fine of $250,00, a term of
supervised release of three years and a
mandatory special assessment of $100.
If
these
penalties
were
imposed
consecutively, the maximum penalties would be
25 years of imprisonment, a $500,000 fine, three
years of supervised release and a mandatory
special assessment of $200.
(Plea Hr’g. Tr. 9-10; see also Plea Agmt. 6.) Under
the terms of the Plea Agreement, the Government
agreed to recommend imposition of a term of
imprisonment no greater than 120 months, (Plea
Hr’g. Tr. 10; Plea Agrmt. ¶ 2.a.), and the Court
agreed to accept that recommendation (Plea Hr’g. Tr.
9, 11). In addition, the Government agreed to
dismiss the remaining sixty-four counts of the
Indictment at the time of Caramadre’s sentencing.
(Id. ¶ 2.d.) Even assuming that Caramadre expected
to be acquitted at trial, “the possibility of even a
highly improbable result may be pertinent to the
extent it would have affected his decision-making.”
Lee, 137 S. Ct. at 1967. Instructing counsel to
pursue plea negotiations with the Government,
Caramadre was at least cognizant of the
consequences of a guilty verdict. (See Day 1 Tr.
68-69) (“[M]y wife’s health is very serious,

33a

my children cannot go without a father who would
be potentially incarcerated for many, many years
. . . .”).
Clearly Caramadre’s counsel negotiated a
favorable plea agreement. Caramadre’s potential
term of incarceration was capped at ten years.
Counsel were free to argue for a sentence below the
cap, which they did during the sentencing hearing.
(Transcript of December 16, 2013, Sentencing
Hearing (“Sent. Hr’g. Tr.”) 45-46, ECF No. 251.)
Caramadre was ultimately sentenced to 72 months’
incarceration. (Id. at 67, 70.) Sixty-four of the sixtysix counts against him were dismissed by the
Government. (Id. at 71.)
Caramadre cannot “show that there is a
reasonable probability that, but for counsel’s errors,
he would not have pleaded guilty and would have
insisted on going to trial,” Hill, 474 U.S. at 59,
despite his current statements to the contrary
(Caramadre Aff. ¶ 4, 8). He, therefore, cannot
demonstrate prejudice under Strickland.
Caramadre has not met his burden of showing
that counsel provided less than “reasonably effective
assistance under the circumstances then obtaining,”
Natanel, 938 F.2d at 310, or a reasonable probability
that, but for counsels’ alleged errors, “the result of
the proceeding would have been different,”
Strickland, 466 U.S. at 694, that is, he would not
have pled guilty but instead would have insisted on
continuing the trial, see Hill, 474 U.S. at 59.

34a

IV. Conclusion
Based on the foregoing, Caramadre’s ineffective
assistance of counsel claim is rejected in its entirety.
Accordingly, the Motion to Vacate is DENIED.
RULING ON CERTIFICATE OF APPEALABILITY
Pursuant to Rule 11(a) of the Rules Governing
Section 2255 Proceedings in the United States
District Courts, this Court hereby finds that
this case is not appropriate for the issuance of
a certificate of appealability (COA) because
Caramadre failed to make a substantial showing of
the denial of a constitutional right as to any claim,
as required by 28 U.S.C. § 2253 (c) (2).
Caramadre is advised that any motion to
reconsider this ruling will not extend the time to file
a notice of appeal in this matter. See Rule 11 (a),
Rules Governing Section 2255 Proceedings.
IT IS SO ORDERED.

William E. Smith
Chief Judge
Date: October 22, 2018

